UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

No. 18-35038
\V*

A

Gary Oram, Jr.
Appellant,
V.
The City of Dillon; et al.,
Appellee.
DktEntry: 29-1
Before: FERNANDEZ, SILVERMAN, and WAT­
FORD, Circuit Judges.
Ninth Circuit Memorandum
Submitted February 19, 2019
Gary A. Oram, Jr., appeals pro se from the district
court’s summary judgment in his 42 U.S.C. § 1983
action alleging constitutional claims in connection
with his arrest for assault. We have jurisdiction under
28 U.S.C. § 1291. We review de novo. Glenn v. Wash­
ington County, 673 F.3d 864, 870 (9th Cir. 2011). We
affirm.
This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2)

3

The district court properly granted summary
judgment on Oram’s unlawful arrest claim because
Oram failed to raise a genuine dispute of material
fact as to whether Haggard and Alvarez arrested him
without probable cause. See United States v. Lopez,
482 F.3d 1067, 1072 (9th Cir. 2007) (probable cause
for a warrantless arrest exists “when officers have
knowledge or reasonably trustworthy information suf­
ficient to lead a person of reasonable caution to believe
that an offense has been or is being committed by the
person being arrested”); see also Yousefian v. City of
Glendale, 779 F.3d 1010, 1014 (9th Cir. 2015) (“The
mere existence of some evidence that could suggest
self-defense does not negate probable cause”).
The district court properly granted summary
judgment on Oram’s excessive force claim because
Oram failed to raise a genuine dispute of material fact
as to whether Haggard and Alvarez used an unrea­
sonable amount of force against him. See Espinosa v.
City & County of San Francisco, 598 F.3d 528, 537
(9th Cir. 2010) (explaining framework for analyzing
an excessive force claim).
The district court properly granted summary judg­
ment on Oram’s equal protection claim because Hag­
gard and Alvarez were entitled to qualified immunity
under the circumstances. See Ashcroft v. al-Kidd, 563
U.S. 731, 741 (2011) (discussing qualified immunity
and noting that a right is clearly established only if
“every reasonable official would have understood that
what he is doing violates that right” (citation and in­
ternal quotation marks omitted)).
The district court properly granted summary
judgment on Oram’s conspiracy and Monell claims
because Oram failed to demonstrate an underlying
4

Constitutional violation. See Lacey v. Maricopa
County, 693 F.3d 896, 935 (9th Cir. 2012) (a claim
of conspiracy under § 1983 does not exist without an
underlying constitutional violation); Johnson v. City
of Seattle, 474 F.3d 634, 638- 39 (9th Cir. 2007) (“[M]
unicipalities are only liable under Section 1983 if there
is, at minimum, an underlying constitutional tort.”);
See also Monell v. Dep’t of Soc. Servs., 436 U.S. 658,
691-93 (1978).
The magistrate judge did not abuse its discretion
in its disposition of the parties’ various discovery mo­
tions, including its awards of sanctions under Rule
37 for Oram’s failure to attend his deposition, and its
denial of Oram’s reconsideration motion of its order de­
nying the motion to compel production of the dispatch
records. See R & R Sails, Inc. v. Ins. Co. of Penn., 673
F.3d 1240, 1245 (9th Cir. 2012) (setting forth standard
of review for discovery rulings and sanctions).
The magistrate judge properly exercised its ju­
risdiction in ruling on Oram’s various non-dispositive
motions. See Parsons v. Ryan, 912 F.3d 486, 495 (9th
Cir. 2018) (setting forth standard of review); see also
28 U.S.C. § 636(b)(1)(A) (listing matters over which
magistrate judges have jurisdiction).
We reject as meritless Oram’s contentions that
the district court and the magistrate judge denied
him due process, the district court acted outside its
jurisdiction in dismissing the conspiracy claim, and
the clerk’s bills of costs violated his due process rights
and right against double jeopardy.
We do not consider arguments raised for the
first time on appeal, or matters not specifically and
distinctly raised and argued in the opening brief. See
Padgett v. Wright, 587 F.3d 983, 985 n.2 (9th Cir.
5

(2009).
Oram’s requests to bifurcate, to serve Johnson,
and for an in limine ruling, set forth in the opening
and reply briefs, are denied.
Oram’s motion for leave to transmit physical ex­
hibits (Docket Entry No. 12) is denied.
Affirmed.

6

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

No. 18-35038

Gary Oram, Jr.,
Appellant,
v.
The City of Dillon; et al.,
Appellee.
DktEntry: 31
Before: FERNANDEZ, SILVERMAN, and WAT­
FORD, Circuit Judges.
Order Denying Motion for Rehearing and Rehearing
en-banc.
Filed May 28, 2019
The panel has voted to deny the petition for panel
rehearing.
The full court has been advised of the petition for
rehearing en banc and no judge has requested a vote
on whether to rehear the matter en banc. See Fed. R.
App. P. 35.
Oram’s petition for panel rehearing and petition
for rehearing en banc (Docket Entry No. 30) are denied.
No further filings will be entertained in this closed
case.
28

IN THE UNITED STATES DISTRICT COURT FOR
- THE DISTRICT OF MONTANA BUTTE DIVISION.

No. 2:15-cv-00047-BMM

GARY ORAM, JR.
Plaintiff,
v.
THE CITY OF DILLON, CETH HAGGARD,
JEREMY ALVAREZ, and JACOB JOHNSON
Defendants.
Dist.Doc: 145
Before: United States District Court Judge Brian
Morris.
Order: Dismissing Claim, Jacob Johnson.
Filed: August 23, 2017.
Plaintiff filed his Complaint in this case on Sep­
tember 14, 2015. (Doc. 1). A summons was issued for
Defendant Jacob Johnson (Johnson) on September 28,
2015. (Doc. 7). Federal Rule of Civil Procedure 4(m)
requires service of a summons and complaint within
90 days after the filing of the complaint. The Court
issued an Order on December 28, 2016, requiring
Plaintiff to show cause by January 27, 2017, why his
claims against Johnson should not be dismissed for
failure to effect service on Johnson. Plaintiff has failed
to respond to the Court’s Order. There is no indication
in the record that Plaintiff effected service on Johnson.
7

The Court dismissed all of Plaintiffs claims
against Defendants Ceth Haggard, Jeremy Alva­
rez, and the City of Dillon, with prejudice, on De­
cember 20, 2016. (Doc. 132).
Accordingly, IT IS ORDERED:
1. All claims against Defendant Jacob Johnson
are dismissed without prejudice for failure to effect
service on Johnson.
2. The Clerk is directed to enter a judgment
that dismisses all claims against Defendants Ceth
Haggard, Jeremy Alvarez, and the City of Dillon,
with prejudice; and dismisses all claims against
Defendant Johnson without prejudice.
DATED this 23rd day of August 2017.
s/Brian Morris, United States District Court
Judge.

8

